   June 10, 2002




Human Capital
Compensation Policies and
Procedures for Selected
Nonappropriated Fund Childcare
Providers
(D-2002-101)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General of the
  Defense Department Web site at www.dodig.osd.mil/audit/reports or contact the
  Secondary Reports Distribution Unit of the Audit Followup and Technical
  Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

CDC                   Childcare Development Center
CDP                   Child Development Program
CONUS                 Continental United States
DMDC                  Defense Manpower Data Center
GS                    General Schedule
NAF                   Nonappropriated Fund
OCONUS                Outside CONUS
OPM                   Office of Personnel Management
         Office of the Inspector General of the Department of Defense
Report No. D-2002-101                                                    June 10, 2002
  (Project No. D2001LH-0169)

            Compensation Policies and Procedures for Selected
              Nonappropriated Fund Childcare Providers

                               Executive Summary

Who Should Read This Report and Why? DoD program managers responsible for
the administration of DoD civilian employee personnel and pay policies should review
this report to ensure that they are correctly following pay procedures for
nonappropriated fund (NAF) employees.

Background. Consistent with the Military Child Care Act of 1989, DoD and the
Services agreed to pay entry-level NAF childcare providers at DoD childcare
development centers a minimum pay rate equivalent to that of a General Schedule
grade 2, step 1, at the locality where the childcare development center is located. NAF
childcare providers are civilian employees who are not subject to many of the personnel
laws administered by the Office of Personnel Management, such as the annual general
and locality pay increases. However, the Military Child Care Act of 1989 requires
DoD to pay NAF childcare providers at rates of pay substantially equivalent to rates of
pay to other employees with similar training, seniority, and experience at the
installation where the job is located. In June 2001, the Office of the Deputy Assistant
Secretary of Defense (Civilian Personnel Policy) analyzed April 2001 data from the
NAF childcare provider database maintained by the Defense Manpower Data Center
(DMDC) and concluded that the DMDC data indicated that 22 percent of NAF
childcare providers in the continental United States were paid lower than $8.26 per
hour. In 2001, $8.26 was the minimum hourly rate in the continental United States for
a General Schedule grade 2, step 1, employee. For overseas locations, 41 percent were
paid lower than the applicable minimum rate of $7.67 per hour. The combined
percentage of NAF childcare providers who were underpaid was 25 percent, according
to the database.

Results. DoD compensation policies for NAF childcare providers were generally
effective. The childcare development center initial training program and advancement
policies were effectively implemented at the 12 sites visited. Details are in
Appendix C.

All 857 NAF childcare providers at the 12 sites visited were paid at least the minimally
required amount for entry-level positions at their pay locality. However, 23 NAF
childcare providers employed by the Marine Corps did not receive the percentage
increase mandated by DoD regulations when they were promoted. As a result, though
the NAF childcare providers were paid at rates equivalent to or more than the
minimally required amounts, some should have been paid at rates higher than they were
being paid. Establishing controls will ensure that NAF childcare providers are paid at
the correct pay rates when they are promoted from one pay position to another
(finding A).
The NAF childcare provider database maintained by DMDC and the databases
transmitted to DMDC by the Services were inaccurate and unreliable as of July 2001.
Specifically, for the 12 sites visited, 15 childcare providers in the database were no
longer employed at the childcare development centers. Further, 232 of 857 NAF
childcare providers were not included in the DMDC database. As a result, the DMDC
database could not be relied on to provide DoD decision makers with current, accurate,
and reliable information. Establishing controls and performing quarterly reconciliations
would ensure that current and accurate data on childcare providers are available to DoD
decision makers (finding B).

See the Findings section for the detailed recommendations. See Appendix A for details
on our review of the management control program.

Management Comments and Audit Response. The Marine Corps concurred with the
recommendation to establish controls to ensure that NAF childcare providers receive
the required compensation upon promotion. The Army, the Navy, the Air Force, and
the Marine Corps concurred with the recommendation to establish controls to ensure
that NAF childcare provider databases transmitted to DMDC are current and accurate.
The Navy and the Marine Corps concurred with the recommendation to establish
policies and procedures to perform reconciliation of the Service NAF childcare
provider databases with the database maintained by DMDC to ensure the integrity and
accuracy of the databases. The Army partially concurred with the recommendation, and
the Air Force concurred with the intent of the recommendation. A discussion of
management comments is in the Findings section of the report and the complete text is
in the Management Comments section.

The Army, the Navy, and the Marine Corps comments are responsive. The Air Force
comments are partially responsive. We agree with the Air Force that the cost of
administrative controls should be compared to the benefits of the controls. However,
we believe that the benefit of providing DoD decision makers with current and accurate
data outweighs the minimal funds and staffing required to ensure the accuracy of the
Air Force data. We request the Air Force to reconsider its response to the
recommendation and also provide detailed information on the controls it established by
July 10, 2002.




                                           ii
Table of Contents

Executive Summary                                     i

Background                                            1


Objectives                                            2


Findings
     A. Salary Payments to NAF Childcare Providers   3
     B. Databases of NAF Childcare Providers         7

Appendixes
     A. Audit Process
          Scope and Methodology                      14
          Management Control Program Review          15
     B. Prior Coverage                               17
     C. Other Matters of Interest                    19
     D. Report Distribution                          23

Management Comments
     Department of the Army                          25
     Department of the Navy                          28
       Marine Corps                                  32
     Department of the Air Force                     34
Background
    We performed this audit in response to a request from the Assistant Secretary of
    Defense (Force Management Policy). In June 2001, the Office of the Deputy
    Assistant Secretary of Defense (Civilian Personnel Policy) analyzed the database
    of nonappropriated fund (NAF) childcare providers maintained by the Defense
    Manpower Data Center (DMDC) for April 2001 and concluded that 22 percent
    of NAF childcare providers in the continental United States (CONUS) were paid
    lower than the minimum entry-level rate of $8.26 per hour. In 2001, the
    minimum CONUS General Schedule (GS) grade 2, step 1 (GS-2/1), pay rate
    was $8.26 per hour. For outside CONUS (OCONUS), 41 percent of the NAF
    childcare providers were paid lower than the applicable $7.67 per hour
    minimum rate. The combined percentage of NAF childcare providers who were
    underpaid was 25 percent, according to the database. The Deputy Assistant
    Secretary of Defense (Civilian Personnel Policy) restricted his review of
    CONUS to the localities where the minimum pay rate was $8.26 per hour and to
    NAF Child Development Program Assistants classified as being in the
    Education and Training Technician Series (1702s).

    The Military Child Care Act of 1989 requires DoD to pay NAF childcare
    providers at pay rates competitive with the pay rates of other employees at the
    installation with similar training, seniority, and experience. To implement the
    Military Child Care Act of 1989, DoD established a 2-year pilot program in
    February 1990 to increase the pay for NAF childcare providers at the entry level
    to a minimum rate that was equivalent to the local rate for a GS-2/1 and a
    maximum rate equivalent to a GS-3/10. NAF childcare providers are DoD
    civilian employees at child development centers (CDCs) who are not subject to
    many of the personnel laws administrated by the Office of Personnel
    Management (OPM), such as the annual general and locality pay adjustments
    available for appropriated fund employees. The pilot program also provided a
    career path for NAF childcare providers at the CDCs to prevent them from
    remaining at the entry level longer than necessary. Subsequent to the pilot
    program, DoD and the Services agreed to make the NAF childcare provider pay
    system permanent. DoD referred to the NAF pay system as the payband system
    (discussed later). In March 1999, DoD incorporated the payband system into
    DoD Manual 1400.25-M, “Department of Defense Civilian Personnel Manual,”
    December 1996.

    In January 2001, OPM published 32 different CONUS locality GS pay rate
    tables for 2001. The tables showed the pay rates for 31 specific geographical
    locations identified by OPM and for “the rest of the U.S.,” which covered all
    CONUS locations that were not specifically identified in the other tables. The
    2001 OPM locality pay adjustments did not include Alaska, Hawaii, and
    OCONUS. The pay rate for a GS-2/1 on the rest of the U.S. table was $8.26
    per hour, which incorporated a 2.7 percent general increase and a 7.68 percent
    locality pay increase, a net increase from 2000 of 3.57 percent.




                                       1
Objectives
     Our overall audit objective was to assess compliance with policies and
     procedures concerning compensation for DoD childcare providers. We also
     evaluated compliance with training requirements for entry-level NAF childcare
     providers. The management control program as it related to the overall
     objective was also reviewed. See Appendix A for a discussion of the audit
     scope and methodology and our review of the management control program.
     See Appendix B for prior coverage. See Appendix C for other matters of
     interest, including the results of our evaluation concerning training
     requirements, which showed that the initial training program was effectively
     implemented at the 12 sites visited.




                                        2
            A. Salary Payments to NAF Childcare
               Providers
            DoD compensation policies for NAF childcare providers were generally
            effective. All 857 NAF childcare providers at the 12 sites visited were
            paid at least the minimally required amount for entry-level positions at
            their pay locality. However, 23 NAF childcare providers employed by
            the Marine Corps did not receive the percentage increase mandated by
            DoD regulations when they were promoted. The Marine Corps did not
            enforce the DoD guidance. As a result, though the NAF childcare
            providers were paid at rates equivalent to or more than the minimally
            required amounts, at least 23 childcare providers should have been paid
            at rates higher than they were being paid.


Criteria
     Public Law. Section 1792, title 10, United States Code (10 U.S.C. 1792),
     February 1996, requires DoD to establish a program to increase the
     compensation of childcare employees who are directly involved in providing
     childcare at military installations and are paid from NAFs.

        •   In the case of entry-level NAF childcare providers, DoD must provide
            rates of pay competitive with the rates of pay to other entry-level
            employees at the installation who are drawn from the same labor pool.

        •   In the case of other NAF childcare providers, DoD must provide rates of
            pay substantially equivalent to the rates of pay to other employees at that
            installation with similar training, seniority, and experience.

     DoD Policies. DoD Manual 1400.25-M implements civilian personnel policies,
     establishes uniform DoD-wide procedures, and provides guidelines regarding
     civilian personnel management within DoD. To implement 10 U.S.C. 1792,
     DoD incorporated subchapter 1405, Appendix C, into DoD Manual 1400.25-M
     in March 1999. Appendix C establishes policies for the classification and pay
     system for NAF childcare providers. All NAF childcare providers at the CDCs
     were converted to that system.

             Pay Rates and Pay Increases. Appendix C of DoD Manual 1400.25-M
     states that the minimum and maximum pay rates for NAF childcare providers at
     each payband will be equivalent to the GS rates. The minimum and maximum
     rates could be adjusted by the servicing civilian personnel officers or human
     resources officers as necessary to equate to the corresponding GS rates for the
     locality in which the job was located. Additionally, the Manual states that “an
     employee’s pay must be increased as necessary to prevent it from falling below
     the minimum rate of the band. However, employers have the discretion to set
     pay within the minimum and maximum rates for each band.” The Manual also
     states that “a position change to the next level of responsibility within or

                                         3
           between paybands requires a minimum of 6 percent hourly rate increase, or the
           minimum rate associated with the applicable GS grade in the locality to which
           assigned, whichever is higher.”

                   Payband System. Appendix C of DoD Manual 1400.25-M assigns all
           NAF childcare providers to DoD-wide standard position descriptions (the 1702
           job series) and into one of two paybands. The first payband (CC-I) covers
           positions at the entry and intermediate levels, and the second payband (CC-II)
           covers positions at the target, leader, and technician levels. CC-I positions are
           developmental positions for advancement into CC-II positions. Advancement
           occurs when a childcare provider moves from one childcare development
           program (CDP) level to another, starting at the entry level. Table 1 depicts the
           childcare provider paybands.
                     Table 1. Structure of Classification and Pay System For
                                 DoD NAF Childcare Providers
                                                         Minimum             Maximum
                                                          Pay Rate            Pay Rate
              Payband           Position               (GS Equivalent)     (GS Equivalent)
              CC-I        CDP Assistant,                   GS-2/1              GS-3/10
                          Entry Level
                          (comparable to GS-2)
                          CDP Assistant                    GS-2/1               GS-3/10
                          Intermediate Level
                          (comparable to GS-3)

              CC-II       CDP Assistant,                   GS-4/1               GS-5/10
                          Target Level
                          (comparable to GS-4)
                          CDP Assistant,                   GS-4/1               GS-5/10
                          Leader Level
                          (comparable to GS-5)
                          CDP                              GS-4/1               GS-5/10
                          Technician Level
                          (comparable to GS-5)


           Service Policies. All the Services have similar policies and procedures
           implementing DoD Manual 1400.25-M. In January 2001, headquarters NAF
           personnel for the Services∗ issued additional guidance on the implementation of

∗
    The Army policies were issued by the Defense Finance and Accounting Service, NAF Financial
    Services, Texarkana, Texas. The Navy policies were issued by the Commander, Navy Personnel
    Command, Millington, Tennessee. The Air Force policies were issued by the Headquarters Air Force
    Service Agency, Human Resources Division, Randolph Air Force Base, Texas. The Marine Corps
    policies were issued by Management Information Systems, Personnel and Family Readiness Division,
    Quantico, Virginia.

                                                   4
    the 2001 pay rates to the personnel offices at the military installations where the
    CDCs were located. The guidance also stated that an employee’s pay must be
    increased as necessary to prevent it from falling below the minimum rate of the
    payband.


Paid at Minimum Rates
    All 857 NAF childcare providers at the 12 sites visited were paid at least the
    minimally required amount for entry-level positions at their pay locality. We
    visited 12 of 103 CONUS (3 per Service) sites with over 30 childcare providers
    in the database provided to us by each of the Services. At each of the 12 sites,
    we reviewed the personnel and payroll records of the NAF childcare providers
    at the CDCs. All 857 of the NAF childcare providers were paid at least $8.26.
    Table 2 shows the sites visited and the number of employees reviewed.


Pay Increase Upon Advancement
    At two of the three Marine Corps sites visited, 23 NAF childcare providers had
    not received the percentage increase mandated by DoD Manual 1400.25-M upon
    their advancement. All of the 23 employees received a 6 percent pay increase
    when they were promoted. However, we believe the 6 percent pay increase was
    lower than the amount mandated by DoD Manual 1400.25-M. Management
    controls to enforce compliance with the DoD guidance for promotion-related
    pay increases were not adequate.

    Advancement among NAF childcare providers occurs when the employees move
    from one CDP position to another (CDP positions are shown in Table 1).
    According to DoD Manual 1400.25-M, a position change to the next level of
    responsibility within or between paybands requires an increase of 6 percent or
    an increase to the minimum rate associated with the applicable GS grade level in
    the locality to which assigned, whichever is higher. At two of the three Marine
    Corps sites, 23 CDC NAF childcare providers that were promoted received pay
    adjustments of 6 percent when they were promoted from one CDP level to
    another. However, the 6 percent pay increases were lower than the minimum
    rate associated with their paybands. For example, at one of the two sites, an
    entry-level NAF childcare provider paid at $8.26 per hour was promoted to
    CDP Assistant, Intermediate Level, and was given a 6 percent pay increase,
    which increased the employee’s pay to $8.77 per hour. As shown in Table 1,
    that level is comparable to a GS-3. Although $8.77 per hour was within the
    payband at the intermediate level, the 2001 locality pay for a GS-3/1 of $9.02
    per hour was higher. We believe the employee should have been paid at least
    $9.02 per hour and not $8.77 per hour.




                                         5
Conclusion
    DoD compensation policies for NAF childcare providers were generally
    effective. All 857 NAF childcare providers at the 12 sites visited were paid at
    least the minimally required amount for entry-level positions at their pay
    localities, indicating compliance with DoD policy. However, the Marine Corps
    needs to ensure compliance with DoD Manual 1400.25-M regarding childcare
    provider compensation upon advancement.


Recommendation and Management Comments
    A. We recommend that the Deputy Commandant for Manpower and
    Reserve Affairs, United States Marine Corps, establish controls to ensure
    that nonappropriated fund childcare providers receive the required
    compensation upon advancement from one child development program level
    to another.

    Marine Corps Response. The Marine Corps concurred and stated that controls
    to ensure that childcare providers receive the required compensation upon
    advancement will be discussed at a directors conference scheduled for August
    2002. Additionally, headquarters personnel will review this issue during their
    regularly scheduled on-site visits to childcare centers at Marine Corps facilities.




                                         6
           B. Databases of NAF Childcare
              Providers
           The NAF childcare provider database maintained by DMDC and the
           databases transmitted to DMDC by the Services were inaccurate and
           unreliable as of July 2001. Specifically, for the 12 sites visited,
           15 childcare providers in the database were no longer employed at the
           CDCs. Further, 232 of 857 NAF childcare providers were not included
           in the DMDC database at that time. The inaccuracy occurred in part
           because of errors in data provided by the Services and an unexplained
           exclusion of Navy data. Service databases were inaccurate because of
           inadequate management controls. Additionally, there were no policies
           and procedures in place for the Services to reconcile their databases with
           the DMDC database to ensure integrity and accuracy of the databases.
           As a result, the DMDC database could not be relied on to provide DoD
           decision makers with current, accurate, and reliable information.


Role of DMDC
    The primary function of DMDC is to support the information management
    needs of the Under Secretary of Defense for Personnel and Readiness. In that
    capacity, DMDC collects and maintains an archive of automated personnel,
    training, and financial databases for DoD. Databases and files at DMDC are
    made up of large numbers of submissions received from agencies inside and
    outside DoD. The Services provide data concerning their NAF childcare
    providers to DMDC on a monthly basis.

    The servicing personnel offices for the CDCs input personnel data on NAF
    childcare providers to the Services’ personnel databases. Headquarters NAF
    personnel electronically extract each CDC’s data, consolidate the information,
    and then transmit the data to DMDC on a monthly basis. The databases
    transmitted to DMDC include personnel and pay information on each NAF
    childcare provider employed at the CDCs as of the date of the transmission.
    The format for reporting the data to DMDC is included in a May 28, 1998,
    memorandum from the Office of the Assistant Secretary of Defense (Financial
    Management Policy) to the Services.


Accuracy of the DMDC NAF Childcare Provider Database
    The NAF childcare provider database maintained by DMDC was inaccurate and
    unreliable. For the 12 sites visited, the DMDC database included data on
    15 childcare providers who were no longer employed at the CDCs. NAF
    childcare providers who left the CDCs before January 1, 2001, did not receive
    locality and general pay adjustments for 2001. As a result, those employees,
    who were still included in the DMDC database, were shown as receiving

                                        7
2000 pay rates. Also, the DMDC database did not include any data for NAF
childcare providers at the three Navy bases visited. Navy personnel stated they
had transmitted the data to DMDC and could not explain why the data were
missing from the DMDC database.

For the 12 sites visited, the DMDC database included 773 childcare providers
who were shown as being in the 1702 job series. Our review of the DMDC
data for those 773 1702s indicated that 133 were not NAF childcare providers at
the CDCs, leaving 640 CDC employees. Databases maintained by Service
headquarters NAF personnel offices and source documents at the 12 sites
indicated that the DMDC database should have included 857 NAF 1702s
employed at the CDCs, not 640 NAF CDC 1702s. Most of the difference is
from the 199 NAF CDC 1702s at the three Navy sites who were not in the
DMDC database. In addition, 33 other employees were not in the DMDC
database and 15 who should have been deleted from the database were still in it.
Table 2 shows the discrepancies in the DMDC database.

          Table 2. Analysis of NAF CDC 1702 Employees in the
                             DMDC Database
                                                    No
                                DMDC     Not In   Longer
 Service                       Database Database At CDC      Actual
 Army
  Fort Belvoir, VA                  77       0        3        74
  Fort Benning, GA                  51       7        1        57
  Fort Carson, CO                 157       13        6       164
    Subtotal                      285       20      10        295
 Navy
  NSB Bangor, WA                     0    135         0       135
  NAS Brunswick, ME                  0     27         0        27
  NAS Jacksonville, FL               0     37         0        37
    Subtotal                        0     199         0       199
 Air Force
  Cannon AFB, NM                    27       0        0        27
  Langley AFB, VA                   63       0        0        63
  Maxwell AFB, AL                   73       5        1        77
    Subtotal                      163        5        1       167
 Marine Corps
  Camp Lejeune, NC                  80       6        1        85
  MCAS Cherry Point, NC             60       1        0        61
  MCAS New River, NC                52       1        3        50
    Subtotal                      192        8        4       196
     Total                        640     232       15        857
AFB        Air Force Base
MCAS       Marine Corps Air Station
NAS        Naval Air Station
NSB        Naval Submarine Base

                                   8
    Quantitative Review of the DMDC Database. The Quantitative Methods
    Division of the Office of the Inspector General reviewed and compared the July
    2001 database obtained from DMDC with the databases obtained from the
    Services for all NAF CDC 1702s. The inconsistencies identified by that review
    included the following.

       •   The databases from the Services listed different numbers of employees
           per CDC than the DMDC database. In addition, the total number of
           employees listed in the Navy database was significantly higher than the
           DMDC database—by more than a thousand employees.

       •   Some employees were listed in the DMDC database and not in the
           Service database and vice versa.
       •   The databases included a small number of duplicate records.


Accuracy of Service Personnel Databases
    The NAF childcare provider databases maintained by the Services and the data
    transmitted to DMDC were not accurate and reliable because management
    controls were inadequate. The databases did not include data on all NAF
    childcare providers, were not always purged to delete information on NAF
    childcare providers who were no longer employed by the Service CDCs, and
    included some duplicate entries. Table 3 shows the discrepancies in the Service
    databases of NAF CDC 1702s by site.




                                       9
               Table 3. Analysis of NAF CDC 1702 Employees
                           In Service Databases
                                                     No
                                 Service   Not In  Longer
 Service                        Database Database  At CDC                       Actual
 Army
  Fort Belvoir, VA                 78                   0             4            74
  Fort Benning, GA                n/a1                n/a1          n/a1           57
  Fort Carson, CO                 n/a1                n/a1          n/a1          164
    Subtotal                      n/a1                n/a1          n/a1          295
 Navy
  NSB Bangor, WA                  1502                14             292          135
  NAS Brunswick, ME                42                  1             16            27
  NAS Jacksonville, FL             42                  2              7            37
    Subtotal                     234                  17             52           199
 Air Force
  Cannon AFB, NM                   27                   0             0            27
  Langley AFB, VA                  63                   0             0            63
  Maxwell AFB, AL                  72                   6             1            77
    Subtotal                     162                    6             1           167
 Marine Corps
  Camp Lejeune, NC                 85                   0             0            85
  MCAS Cherry Point, NC            58                   3             0            61
  MCAS New River, NC               50                   0             0            50
    Subtotal                     193                    3             0           196
AFB        Air Force Base
MCAS       Marine Corps Air Station
NAS        Naval Air Station
NSB        Naval Submarine Base
1
  Not available. Data did not include names and social security numbers, which precluded
matching the data to specific employee records.
2
  Does not include duplicate entry on one employee.

Army Database. Army data are transmitted to DMDC by the Assistant
Secretary of the Army (Manpower and Reserves Affairs), Civilian Personnel
Policy, NAF Personnel Policy and Program Division, Alexandria, Virginia.
Although the data transmitted to DMDC included employee names and social
security numbers, the data provided for this audit did not identify employees by
name or social security number. As a result, we could not compare the
individual Army records with individual personnel records to determine the
number of NAF childcare providers employed at the CDCs included in the
Army data. However, the number of childcare providers (1702s) in the Army
database was 301. The DMDC database showed 356 Army 1702s. At one
Army CDC, we were able to match the Army data to personnel records by
position description and number and concluded that four of the 78 NAF
childcare providers included in the Army database were no longer employees of
that CDC.

                                         10
     Navy Database. Navy data are transmitted to DMDC by the Navy Personnel
     Command, Millington, Tennessee. The DMDC database did not include data
     on the three Navy sites visited. The database received from the Navy for this
     audit included 234 NAF CDC 1702s for the three sites. We compared the Navy
     data with personnel records and concluded that the Navy database included at
     least 52 NAF CDC 1702s who were no longer employed at the Navy CDCs.
     For example, at one Navy site, 29 NAF childcare providers who were no longer
     employed by the CDCs were still in the Navy database. At least three of the 29
     employees had left the CDCs before December 31, 2000. One of those 29 was
     listed twice in the Navy database. Also, data on 17 NAF childcare providers at
     the three sites were not included in the Navy database.

     Air Force Database. Air Force data are transmitted to DMDC by
     Headquarters Service Agency, Directorate of Force Management and Personnel,
     Human Resources Division, San Antonio, Texas. Both the data transmitted to
     DMDC and the database provided for this audit included data on one NAF
     childcare provider who was no longer employed at the Air Force CDC. The
     Air Force database was also missing data on six NAF childcare providers
     employed at the CDCs. The hourly pay rates in the personnel records for three
     NAF childcare providers at one CDC were higher than the hourly rates shown
     in the Air Force database. The pay rates in the personnel records agreed with
     the payroll records.

     Marine Corps Database. Marine Corps data are transmitted to DMDC by
     Management Information Systems, Personnel and Family Readiness Division,
     Quantico, Virginia. Both the data transmitted to DMDC and the database
     provided for this audit did not include data on three NAF childcare providers
     who were employed at one of the Marine Corps CDCs. Also, at each of two
     Marine Corps CDCs, the hourly pay rates shown in the Marine Corps database
     for one NAF childcare provider were different from the hourly pay rates in the
     DMDC database. The pay rates in the DMDC database agreed with the payroll
     records.


Reconciliation of Databases
     There were no policies and procedures in place for the Services to reconcile
     their databases with the database maintained by DMDC to ensure the integrity
     and accuracy of the databases.




                                       11
Recommendations, Management Comments, and Audit
  Reponse
    B. We recommend that the Assistant Secretary of the Army (Manpower
    and Reserve Affairs); the Assistant Secretary of the Navy (Manpower and
    Reserve Affairs); the Assistant Secretary of the Air Force (Manpower,
    Reserve Affairs, Installations and Logistics); and the Deputy Commandant
    for Manpower and Reserve Affairs, United States Marine Corps:

           1. Establish controls to ensure that data on nonappropriated fund
    childcare providers transmitted to the Defense Manpower Data Center are
    current and accurate.

           2. Establish policies and procedures to perform reconciliation, at
    least on a quarterly basis, of Service nonappropriated fund childcare
    provider databases with the database maintained by the Defense Manpower
    Data Center to ensure the integrity and accuracy of the databases.

    Army Comments. The Army concurred with Recommendation B.1. and
    partially concurred with Recommendation B.2. The Army stated that it has
    implemented the Defense Civilian Personnel Data System, which will be used to
    provide data to DMDC. The data sent to DMDC will be accurate as of the date
    the data is pulled from the field databases into the headquarters database.
    Additionally, DoD is installing a Corporate Management Information System
    that, when fully operational, will provide DoD with current Army data as often
    as the system is updated. In addition, the Army stated that the NAF Payroll
    Interface, part of the Civilian Personnel Data System, has the capability to
    perform a quarterly reconciliation with the NAF Financial Services payroll
    records. According to the Army, the system, when fully operational, will
    compare payroll and personnel records and reject any mismatches; mismatches
    will be corrected to ensure the quality of the database. The Army anticipates
    the system to be in operation by September 30, 2002.

    Audit Response. The Army comments on Recommendation B.1. are
    responsive and the comments on Recommendation B.2. meet the intent of the
    recommendation.

    Navy Comments. The Navy concurred and stated that the Navy Personnel
    Command is implementing a new information system and all personnel data,
    including pay information, will be entered into the system at one time. The
    information system will feed directly into the payroll system, thereby
    eliminating additional manual inputs and ensuring data updates on a regular
    basis. The system will be operational at 75 percent of the Navy installations by
    the end of 2003 and 100 percent by the end of 2005. In the interim, the Navy
    will continue training its personnel with emphasis on complying with procedures
    currently in place. The Navy also stated that it would implement a quarterly
    validation process before personnel data is sent to DMDC. The quarterly
    validation process will begin in the third quarter of FY 2002.


                                       12
Additionally, the Navy stated that it would include cross check of the quarterly
validation in its Child Development Program annual inspections.

Air Force Comments. The Air Force concurred with Recommendation B.1.
and with the intent of Recommendation B.2. The Air Force stated that controls
to ensure data accuracy have been established and the audit findings, which
were limited to one installation, were corrected during the audit. The Air Force
also stated that current Air Force controls should be sufficient to ensure that
both the Air Force and the DMDC databases were accurate and that establishing
additional administrative processes for quarterly reconciliation will consume
substantial funds and staffing. Additionally, the Air Force stated that
considering the limited number of findings, performing quarterly reconciliation
of the Air Force and the DMDC databases is not considered cost-effective.
Audit Response. The Air Force comments are partially responsive. We
request that the Air Force provide detailed information on the controls it
established in response to Recommendation B.1. We also request the Air Force
to reconsider its comments on Recommendation B.2. The audit finding applied
to one of three (33 percent) of the Air Force sites we visited and 7 of 167
(4 percent) of the records we reviewed. Although our results cannot be
generalized to the universe of Air Force sites, Air Force controls were not
sufficient at 33 percent of the Air Force sites we visited during the audit. We
agree with the Air Force that the cost of administrative controls should be
compared to the benefits of the controls. However, we believe that the benefit
of providing DoD decision makers with current and accurate data outweighs the
minimal funds and staffing required to ensure the accuracy of the Air Force
data.

Marine Corps Comments. The Marine Corps concurred and stated that it is
currently implementing a new Human Resources/Payroll system. When the
system is in place, the Marine Corps will work with DoD to develop procedures
to ensure that the DMDC and Marine Corps databases are accurate.




                                    13
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We discussed the scope of the NAF childcare provider
    underpayments and obtained additional information on the June 2001 study from
    the Office of the Deputy Assistant Secretary of Defense (Civilian Personnel
    Policy). We obtained and reviewed the Services’ NAF childcare provider
    databases for July 2001 that were transmitted to DMDC. We also obtained and
    reviewed the NAF childcare provider databases that DMDC received from the
    Services for July 2001. We visited and interviewed personnel at DMDC
    headquarters. We also talked to the personnel at the DMDC office at Monterey,
    California, who were responsible for the management of the DMDC NAF
    childcare provider database. We contacted and discussed the consolidation and
    transmission of NAF childcare provider databases to DMDC with headquarters
    NAF personnel at each of the Services. At each of the 12 sites we visited, we
    interviewed personnel, reviewed personnel and training records, and reviewed
    payroll records for the last pay period in July 2001. We visited the CDCs at the
    12 sites and obtained listings of NAF childcare providers as of July 2001. We
    compared the databases obtained from the Services with the database obtained
    from DMDC and with the NAF childcare provider listings obtained from the
    CDCs or their local personnel offices. At each site’s personnel center, we
    reviewed vacancy announcements for NAF childcare providers at the CDCs to
    determine whether vacancies were being advertised at appropriate hourly rates.

    Limitations to Audit Scope. Our review was limited to NAF childcare
    providers classified as 1702s and who were employed at the CDCs at the end of
    the last pay period in July 2001 at the 12 sites we visited. Our review of
    training records was limited to those NAF childcare providers who had been
    employed not more than 1 year as of July 2001.

    Use of Computer-Processed Data. We used computer-processed data provided
    to us by DMDC and the Services for general analysis. We used the Service
    databases to determine the universe of NAF childcare providers employed at the
    CDCs and to select the sample sites to visit. We did not perform tests of the
    systems’ general and application controls to confirm the reliability of the
    computer systems. However, not establishing the reliability of the computer
    systems does not materially affect the results of our audit. To verify the
    accuracy and reliability of the records of NAF childcare providers in the DMDC
    and Service databases, we obtained listings of NAF childcare providers from the
    CDCs or their local personnel offices and compared the listings with the
    databases.

    Universe and Sample. The sampling for our audit included DoD-wide NAF
    childcare providers classified in the 1702 job series and employed at the CDCs
    at the end of the last pay period in July 2001. For reasons of efficiency, we
    excluded OCONUS sites, including Hawaii and Alaska, and those sites that the
    Service databases showed as having fewer than 30 childcare providers.

                                       14
    Statistical Sampling Methodology. We grouped childcare providers by
    Service and by site based on the July 2001 databases we received from the
    Services. We used stratification to ensure that all four Services were
    represented. We randomly selected sites within each Service for the sample.
    The following table shows the universe and sample sites selected by Service.
    The first three randomly selected sites for each Service were the sites we visited
    for this audit.

                        Universe and Sample by Service
                Service         Total Sites    Sample Sites
                Army                29             12
                Navy                14             10
                Air Force           52             15
                Marine Corp           8              6
                 Total             103             43

    Use of Technical Assistance. Statisticians from the Quantitative Methods
    Division, Audit Followup and Technical Support Directorate, Office of the
    Assistant Inspector General for Auditing, provided assistance in designing the
    sampling plan for the audit and in evaluating DMDC and Service databases.
    Members of the Office of the General Counsel, Office of the Inspector General,
    DoD, provided legal interpretation of laws and regulations.

    Audit Dates and Standards. We performed this audit from July through
    January 2002 in accordance with generally accepted government auditing
    standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, requires DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls over NAF childcare providers’ compensation
    and advancement. Specifically, we reviewed controls over pay rates, over
    training of personnel for advancement, and over database integrity.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the Services as defined by DoD Instruction 5010.40.
    Service management controls for managing NAF childcare provider databases

                                        15
were not adequate to ensure that the databases were current, accurate, and
reliable. Also, Service management controls were not adequate to ensure the
accuracy and integrity of the NAF childcare provider data transmitted to
DMDC. Recommendations B.1. and B.2., if implemented, will improve the
accuracy of the Service NAF childcare provider databases. A copy of the report
will be provided to senior officials responsible for management controls within
each of the Services.

Adequacy of Management’s Self-Evaluation. The Services did not consider
NAF childcare provider databases as an assessable unit and, therefore, did not
identify or report the material management control weaknesses identified by the
audit.




                                   16
    Appendix B. Prior Coverage
    During the last 5 years, the General Accounting Office has issued one report
    comparing DoD and civilian childcare cost. The Army Audit Agency has issued
    two reports on NAF payroll issues at specific Army installations, and the Air
    Force Audit Agency has issued 10 reports discussing salaries or training at
    CDCs at specific Air Force installations. Unrestricted General Accounting
    Office reports can be accessed over the Internet at http://www.gao.gov.


General Accounting Office
    GAO Report No. HEHS-00-7, “Child Care: How Do Military and Civilian
    Center Costs Compare?” October 14, 1999


Army
    Army Audit Agency Report No. AA 01-479, “Nonappropriated Fund Payroll,”
    September 25, 2001

    Army Audit Agency Report No. AA 01-201, “Nonappropriated Fund Payroll:
    U.S. Army Communications-Electronics Command and Fort Monmouth,”
    March 9, 2001


Air Force
    Air Force Audit Agency Report No. EO001067, “Child Development Center,
    22d Air Refueling Wing, McConnell AFB [Air Force Base], KS,” August 20,
    2001

    Air Force Audit Agency Report No. EO001055, “Child Development Center,
    55th Wing, Offutt AFB, NE,” May 21, 2001

    Air Force Audit Agency Report No. EA001019, “Child Development Center
    Management, 89th Airlift Wing, Andrews AFB, MD,” March 6, 2001

    Air Force Audit Agency Report No. WH001017, “Child Development
    Program, 35th Fighter Wing, Misawa AB [Air Base], Japan,” February 6, 2001

    Air Force Audit Agency Report No. WH001018, “Child Development
    Program, 374th Airlift Wing, Yokota AB, Japan,” February 6, 2001

    Air Force Audit Agency Report No. WM000062, “Child Development Center,
    28th Bomb Wing, Ellsworth AFB, SD,” May 25, 2000

                                     17
Air Force Audit Agency Report No. DR099022, “Child Development Center
Activities, Warner Robins Air Logistics Center, Robins AFB, GA,” May 21,
1999

Air Force Audit Agency Report No. DE099011, “Child Development Center,
Air Armament Center, Eglin AFB, FL,” December 22, 1998.

Air Force Audit Agency Report No. ER099008, “Child Development Center
86th Airlift Wing Ramstein AB, Germany,” October 23, 1998

Air Force Audit Agency Report No. 51598009, “Management of Child
Development Center, 314th Airlift Wing, Little Rock AFB, AR,” February 18,
1998




                                18
Appendix C. Other Matters of Interest

Training and Advancement
    The CDC initial training program and advancement policies were effectively
    implemented at the 12 sites visited.

    Public Law. Section 1792, title 10, United States Code, February 1996,
    requires that the Secretary of Defense prescribe uniform regulations
    implementing a training program for childcare providers. Additionally, the law
    requires satisfactory completion of the training program as a condition of
    employment. The law also requires childcare providers to complete the training
    program not later than 6 months after their date of employment.

    DoD Policies. DoD policies require childcare providers to have completed
    required training and education before they can advance to the next CDP level.
    CC-I CDP levels are developmental positions for entry into CC-II CDP levels.
    CDC managers are required to inform entry-level NAF childcare providers of
    the training requirements for advancement and to ensure that the training is
    available and offered. DoD Manual 1400.25-M also requires mandatory
    advancement to CDP Assistant, Target Level, which is the first CDP level in
    CC-II, within two pay periods of satisfactorily completing prerequisite training
    and meeting experience requirements.

    Training at the CDCs. To determine whether NAF childcare providers were
    completing required training no later than 6 months after the date they were
    employed, we examined training records for NAF childcare providers who had
    been employed for no more than 1 year as of the end of July 2001.

    Implementation of the initial training programs for NAF childcare providers by
    the CDCs was effective. Training coordinators at the CDCs ensured that NAF
    childcare providers were on schedule for meeting their training requirements
    and provided counseling and help to those who were behind schedule. As
    shown in the following table, only six out of the 206 NAF childcare providers in
    our sample did not meet their training within 6 months of their employment.
    All of the NAF childcare providers who had completed their training were
    promoted to CDP Assistant, Target Level.




                                       19
                         Training of CDC NAF Childcare Providers
                                                                              Number Not
                                                         Number of         Meeting Training
                                          Actual         Employees           Requirements
                                          Number of      Hired After       Within 6 Months of
          Service                         Employees       July 2000           Employment
          Army
           Fort Belvoir, VA                   74               25                   0
           Fort Benning, GA                   57               19                   2
           Fort Carson, CO                   164               781                  1
            Subtotal                         295              122                   3
          Navy
                                                                                   n/a2
           NSB Bangor, WA                    135              n/a2
                                                                                    0
           NAS Brunswick, ME                  27                2
                                                                                    2
           NAS Jacksonville, FL               37                6
                                                                                    2
            Subtotal                         199                8
          Air Force
           Cannon AFB, NM                     27               15                   0
           Langley AFB, VA                    63               22                   0
           Maxwell AFB, AL                    77               22                   0
            Subtotal                         167               59                   0
          Marine Corps
           Camp Lejeune, NC                   85                9                   0
           MCAS Cherry Point, NC              61                3                   0
           MCAS New River, NC                 50                5                   1
            Subtotal                         196               17                   1

              Total                          857              206                   6


    AFB        Air Force Base
    MCAS       Marine Corps Air Station
    NAS        Naval Air Station
    NSB        Naval Submarine Base
    1
        Training records for three NAF childcare providers were not available for review.
    2
        Not available. We did not review training records because of time constraints.


Navy Pay Adjustments
    As part of our planning process for the audit, we visited one Army site and one
    Navy site to gain an understanding their operations. For the Navy, we visited
    the Navy Personnel Command, Millington, Tennessee. At Millington, we
    reviewed personnel and pay records of 33 current and former NAF childcare
    providers and compared the information with the database that we received from
    the Navy and from DMDC.


                                                20
    The personnel and pay records of the 33 NAF childcare providers indicated that
    they were all underpaid. It appeared that their pay in prior years had been
    understated, and their 2001 general and locality pay adjustments had been based
    on the understated 2000 hourly rates. We did not quantify the total amount of
    the underpayment because of the compound effect of the underpayments for
    prior periods. However, we discussed our observations with the appropriate
    personnel at the base and they promised to take immediate corrective actions.
    The results of our review of the Navy records at Millington, Tennessee, were
    not included in finding A because the site was not in our sample.


NAF Personnel Issues at Fort Hood
    At the request of the Office of the Deputy Assistant Secretary of Defense
    (Civilian Personnel Policy) and the Director, Child and Youth Services, U.S.
    Army Community and Family Support Center, we visited and reviewed
    personnel and compensation policies for NAF childcare providers at Fort Hood,
    Texas. For the review at Fort Hood, we expanded the scope of the audit to
    include NAF childcare providers at the CDCs, School Age Services, and Youth
    Services.

    Compensation Policies. Compensation policies for NAF childcare providers at
    Fort Hood were generally effective. All 219 NAF childcare providers reviewed
    were paid at or in excess of the minimally required amount. In addition, all of
    the childcare providers received the 2001 locality pay adjustment in a timely
    manner. Also, the childcare providers received the percentage increase
    mandated by DoD Manual 1400.25-M upon their advancement.

    Training. We examined training records for 22 NAF childcare providers—16
    who had been employed for not more than 1 year as of the end of July 2001 and
    6 who had been employed for more than 1 year but had not been promoted. Six
    NAF childcare providers (three at the CDC, one at School Age Services, and
    two at Youth Services) had not met their training requirements within 6 months
    of their employment. One of the six employees resigned before the end of July
    2001, four resigned after July 2001, and one is still employed at one of Fort
    Hood’s CDCs. That employee was counseled for not meeting the required
    training within 6 months of employment.

    Data Integrity. The Fort Hood data transmitted to DMDC by the Army was
    inaccurate. We compared the DMDC data with employee listings received from
    the Army headquarters NAF personnel office, the Office of Child and Youth
    Services, the local personnel office, and the CDCs and concluded that six of the
    224 employees in the DMDC database had resigned before July 31, 2001, and
    should not have been in the database. Also, data on one employee was missing
    from the DMDC database. The headquarters NAF personnel office listing of
    213 employees did not include data on five employees who were in the DMDC
    database and was also missing data on the same person who was missing from
    the DMDC database.



                                       21
Background Checks. DoD Instruction 1402.5, “Criminal History Background
Checks on Individuals in Child Care,” January 19, 1993, requires background
checks on all individuals involved in providing childcare services. The Fort
Hood NAF personnel office completed Fort Hood Form 215-X16, “Background
Checks,” August 1, 1994 (or prior editions), indicating when the various
background checks were initiated and completed. Childcare providers can be
hired before completion of background checks. However, the DoD Instruction
requires the removal of an employee from employment if the employee is
determined to be unsuitable to provide childcare services because of derogatory
information contained in a suitable investigation. Prior to removal, the DoD
Instruction requires that the employee be allowed to respond to the unfavorable
results of the background check. At Fort Hood, such an employee would
appear before a Quality Review Advisory Panel.
DoD background checks for childcare providers at Fort Hood were effectively
implemented. However, Fort Hood Form 215-X16 in the personnel folders was
not always updated to include when specific background checks were
completed. The forms were updated and maintained in the desk drawer of the
person coordinating the checks, instead of the personnel folders, and personnel
changes resulted in updates not being made to the forms in the personnel
folders. For example, the personnel folder for one employee indicated that a
July 1993 National Agency Check was unfavorable but did not indicate whether
the employee appeared before any panel to explain the unfavorable results. The
person currently responsible for background checks stated that she believed the
employee had appeared before the Quality Review Advisory Panel but could not
provide any support for that belief. As of January 11, 2002, the individual was
still employed as a childcare provider. We indicated to the responsible officials
that updated Fort Hood Form 215-16X should be maintained in the official
personnel folders, and they promised to take immediate corrective action.




                                   22
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Force Management Policy)
  Deputy Assistant Secretary of Defense (Civilian Personnel Policy)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Manpower and Reserve Affairs)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
  Deputy Naval Inspector General for Marine Corps Matters
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Manpower, Reserve Affairs, Installations and
  Logistics)
Auditor General, Department of the Air Force

U. S. Marine Corps
Deputy Commandant for Manpower and Reserve Affairs

Other Defense Organizations
Director, Defense Manpower Data Center

Non-Defense Federal Organization
Office of Management and Budget




                                          23
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         24
Department of the Army Comments




                    25
26
27
Department of the Navy Comments




                       28
29
30
31
32
33
Air Force Comments




              34
35
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this
report. Personnel of the Office of the Inspector General of the Department of
Defense who contributed to the report are listed below.

Shelton R. Young
Dennis E. Payne
Albert L. Putnam
Henry Y. Adu
Sheela M. Javeri
Beverly L. Cornish
Gregory Fulford
William E. Shimp
Charlisa D. Trahan
Travis Schenck
Teena R. Propst
April L. Glasscock
Shanika S. Knight
David H. Barton
Dharam V. Jain
Elizabeth L.N. Shifflett
